 Office of Inspector General
     Audit Report



 DOT DOES NOT HAVE AN EFFECTIVE
ENTERPRISE ARCHITECTURE PROGRAM
 FOR MANAGEMENT OF INFORMATION
      TECHNOLOGY CHANGES

       Department of Transportation


        Report Number: FI-2012-086
        Date Issued: April 17, 2012
           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: DOT Does Not Have an Effective                                       Date:    April 17, 2012
           Enterprise Architecture for the Management of
           Information Technology Changes
           Report Number: FI-2012-086

  From:    Louis King                                                                Reply to
                                                                                     Attn. of:   JA–20
           Assistant Inspector General for Financial and
              Information Technology Audits

    To:    Chief Information Officer

           With approximately $3 billion in annual expenditures, and reliance on about 400
           information technology (IT) systems to conduct business and meet its missions,
           the Department of Transportation (DOT) has one of the largest IT investments in
           the Federal Government. Under the Clinger-Cohen Act,1 each Federal department
           must implement a management framework that ultimately reduces its IT
           expenditures through investments in projects with reasonable costs and solid
           management of acquisition risks. This framework—commonly referred to as an
           “enterprise architecture” (EA)—describes both a department’s current state of IT
           operations (the baseline architecture) as well as the future state of these operations
           after the implementation of improvements (the target architecture). This
           framework also includes a transition plan to move from the baseline to the target
           architecture. The purpose of EA is to save costs, reduce duplication of systems,
           align information technology to agency missions, and maximize benefits of
           security investments.

           DOT has expended approximately $48 million on EA, and for fiscal year 2011 and
           beyond, has requested an additional $25 million.2 In 2006, the Government
           Accountability Office (GAO) reported3 that DOT’s EA efforts suffer from a lack
           of commitment and departmental oversight. To obtain a view of the Department’s
           current EA program, we conducted this review. Specifically, our objectives were

           1
               Clinger-Cohen Act (formerly the Information Technology Management Reform Act), Pub. L. No. 104-106 (1996);
               codified at 40 U.S.C. § 11101, et seq. (2011).
           2
               Exhibit B provides a summary of DOT’s EA funding by component.
           3
               GAO, Leadership Remains Key to Establishing and Leveraging Architectures for Organizational Transformation,
               GAO-06-831 (Washington, DC: August 2006).
                                                                                 2


to determine whether DOT has (1) an effective program for the development and
oversight of a Departmentwide EA; and (2) established procedures for the
assessment of EA activities.

To accomplish our objectives, we met with the Department and the components’
Chief Information Officers (CIO), and EA and capital planning and investment
control (CPIC) representatives to determine the history of DOT’s EA
implementation and the status of each component’s EA. In this report,
“components” refers to the Department’s ten Operating Administrations as well as
the Office of the Secretary (OST), the Office of the Inspector General (OIG), and
the Surface Transportation Board (STB). We reviewed and analyzed documents
on components’ systems, current EA architectures, and relevant policies and
procedures. We also reviewed OIG and GAO reports. We conducted this audit
between February 2011 and February 2012 in accordance with generally accepted
Government auditing standards. A detailed description of the scope and
methodology used on this audit can be found in Exhibit A.

RESULTS IN BRIEF

DOT does not have a Departmentwide EA program, as required by Clinger-
Cohen. In 2000, DOT assigned authority for EA development to its components,
but never planned for the integration of the components’ EAs into a single,
Departmentwide EA. Furthermore, the components’ EA programs are incomplete.
For example, the components have not completed their EA policies, procedures,
and baseline architectures. The lack of comprehensive policies and procedures at
both the Department and component levels and the variations in the components’
EAs increase the likelihood that the components’ EAs cannot be easily integrated
into a Departmentwide EA. In response to an OMB request for the status of
DOT’s EA program, the Department recently established a repository for
component EA information. However, the Department has not provided direction
on what information components should provide. As a result, the incomplete
repository contributes to difficulties in information sharing and identification of
redundancies, and limits the reuse of resources—primary objectives of an EA
program. Finally, because most components have not included security costs in
their EA programs, as required by the Federal Information Security Management
Act (FISMA), DOT cannot effectively manage IT security funding. DOT and
component officials attributed these deficiencies to personnel losses and the
dissolution of the departmental EA program office, among other things. In 2009,
DOT hired a Chief Architect, but to date, no staff have been hired to execute and
manage an EA program.

DOT does not have procedures for Departmentwide EA assessment, and
consequently, cannot measure the status and progress of its components’ EAs.
                                                                                                                   3


OMB’s guidance states that each Department should measure its EA activities
against quality standards, and that, in order for management to benefit from EA,
each department should regularly report EA quality measurements to appropriate
officials. However, the Department’s CIO has not developed a program to monitor
EA activities and does not require components to report EA performance
measures, their plans for improvements to EA programs, or cost savings achieved.
Still, in response to a 2011 GAO data request,4 DOT reported that it had saved
approximately $83 million in fiscal year 2009 as a result of its EA. However, DOT
officials could not produce any evidence of these savings or show how they were
calculated. Other than FAA’s non-National Airspace System (NAS), the
components do not use EA measurement programs. Of the five components that
have procedures to address performance measures, only one could provide
evidence of implementation. This lack of Departmentwide performance
measurements and accountability inhibits DOT’s ability to measure EA’s benefits
for its decision-makers, and reduce costs in its IT investments.

We are making a series of recommendations to assist the Department in its
establishment of an effective Departmentwide enterprise architecture program.

BACKGROUND

In 1996, Congress enacted the Clinger-Cohen Act to address longstanding
problems related to Federal IT management. Clinger-Cohen requires the head of
each Federal agency to establish a process that maximizes the value of IT
investments, and assesses and manages the risks of IT acquisitions. Under the Act,
agencies must implement IT projects that contribute to tangible and observable
improvements in agencies’ missions at acceptable costs and within reasonable
timeframes.

Clinger-Cohen also requires each agency’s CIO to develop, facilitate the
implementation of, and maintain an agency-wide EA program that integrates
agency business processes with agency goals. These EA programs are to establish
baseline and target architectures, and transition plans for program management
and investment decisions. Sections 53 and 300 of OMB Circular A-11,
“Preparation, Submission, and Execution of the Budget,” and Circular A-130,
“Management of Federal Information Resources,” establish policy for the
management of Federal information resources, and require Federal agencies to
align their IT investments to their EAs.



4
    In 2011, GAO initiated a survey of Federal departments and agencies’ efforts to measure and report EA results and
    outcomes. Subsequently, and in response to a congressional mandate, GAO announced a Governmentwide
    engagement on EA results and outcomes.
                                                                                                                     4


In September 1999, the Federal CIO Council5 published the Federal Enterprise
Architecture Framework (FEAF)6 to provide Federal agencies with a common
construct for their architectures, and facilitate the coordination of system
investments among Federal agencies. A FEAF model describes an agency’s
business, the data necessary to conduct the business, applications to manage the
data, technology to support the applications, and security measures that ensure the
protection of information resources. In August 2010, GAO issued A Framework
for Assessing and Improving EA Management (Version 2.0), an update of a 2003
version. In June 2009, OMB issued Enterprise Architecture Framework v 3.1.

Development and implementation of an EA require rigorous, disciplined
management practices and maintenance that ensures that the EA is always
accurate. Regular assessments are necessary to keep an EA aligned with its
department’s strategic missions and priorities, changing business practices,
funding profiles, and new technologies. According to OMB and the Federal CIO
Council,7 an effective EA program consists of a number of important elements,8
including a governance structure, departmentwide policy, and management plans.
The guidance for Federal departments from these two agencies and GAO on EA
management practices provides end-to-end processes for an EA program’s
development, implementation, and maintenance, including:

       initiation and organization;
       needed management controls;
       factors that go into decisions on EA development;
       steps for the definition of current and target architectures and a plan for
        transition from the current to the target;
       how to ensure that the EA is implemented and enforced; and
       how to systematically keep the EA current.

Regular assessment of a departmentwide EA program requires a repository for the
storage of EA-related information from the department’s components, such as
summaries of IT investment portfolios, metrics for investment performance, data
from IT applications, and plans for security maintenance. This repository stores
the information in a readily retrievable form. It may be as simple as a shared
directory with department EA artifacts, or it may include databases, web portals or

5
    The CIO Council is the principal interagency forum on the improvement of agency practices related to use of Federal
    information resources.
6
    A framework and high-level process that is not prescriptive, but that provides a method for the implementation of
    EA in a uniform way. FEAF includes requirements for change drivers—business needs, such as new missions or
    assumption of large plans, and technical needs, such as unsupported platforms or obsolesce.
7
    Federal CIO Council, A Practical Guide to Federal Enterprise Architecture, Version 1.0 (February 2001).
8
    These elements are encapsulated in GAO’s EA framework, which defines 59 elements and practices critical to an
    effective program (GAO, A Framework for Assessing and Improving Enterprise Architecture Management (Version
    2.0), GAO-10-846G (Washington, DC: August 2010)).
                                                                                                            5


EA-specific modeling tools. The repository also facilitates information sharing
among components so they can avoid redundancies in their IT applications and
systems.

DOT DOES NOT HAVE A DEPARTMENTWIDE EA PROGRAM

DOT does not have a Departmentwide EA program. Instead, DOT has assigned
authority for EA development to its components, but has no plan to integrate their
individual EA programs into a Departmentwide program. However, the
components’ EA programs are incomplete. Specifically, they have not finalized
their EA policies and guidance, completed or updated baseline architectures, or
defined target architectures. Furthermore, the components have not integrated their
programs with their IT investment practices. In March 2011, in response to an
OMB request for information on EA development status, DOT established a
repository for EA information, but has not yet defined what information the
components must provide. Most of the components also have not included security
in their EA programs, and none could support their security funding requests.

DOT’s EA Policies and Procedures Are Outdated and Incomplete

DOT does not have a Departmentwide EA program and lacks adequate policy and
procedures to develop an EA. Clinger-Cohen requires an EA program and OMB
requires related policies and procedures. DOT’s current EA policy9 outlines roles
and responsibilities for components’ compliance, but it is outdated and does not
cover all of the elements specified by OMB. For example, the policy references
DOT offices that no longer exist but that have not been replaced. Furthermore, the
policy does not address metrics that measure the progress in an EA’s development,
integration, and use over time.

The Department’s EA procedures, entitled Integrated Program Planning and
Management Governance and Practitioners Guides (IPPM), dated March 2010, is
also deficient since it does not incorporate all of OMB’s requirements and lacks
the necessary detail for execution. For example, the procedures do not address the
alignment of EA to IT investments or address the interoperability of existing
systems. Furthermore, they do not specify the people, processes, and tools
necessary to implement a program.

When it began EA planning in early 2000, DOT assigned authority to the
individual components for development of EA programs, but never planned for the
integration of the components’ EAs into a single, Departmentwide EA. We found
that the components have made some progress in the groundwork for their

9
    DOT Order 1351.27; Chief Information Officer Policy (CIOP) Chapter 1351.27, dated September 25, 2009.
                                                                                   6


individual programs, but their EAs remain mostly incomplete. For example, the
components have completed only 2 of the 59 core elements of GAO’s EA
Framework. These core elements are the building blocks of EA management. The
completion of the activities described in the elements will enable management to
mature its EA program and maximize achievement of EA benefits. Exhibit C
presents DOT’s progress in completion of the activities described by each element
in GAO’s Framework, and identifies areas that remain deficient or have not been
addressed. These deficient areas include incomplete policies, procedures, and
baseline architectures; the absence of defined target architectures; and the
integration of EA with IT investment practices.

In the absence of Departmentwide guidance, components have developed their
own policies and procedures, though the majority of them have not been finalized.
We found that only four components—FAA, the Federal Highway Administration
(FHWA), the Federal Railroad Administration (FRA), and the Maritime
Administration (MARAD)—have EA program policies, though the policies do not
incorporate all OMB requirements. Furthermore, these four components’
procedures are incomplete. Specifically, they do not:

    Have sufficient detail to enable continuous EA maintenance and oversight;

    Have sufficient detail to support strategic planning, EA performance
     improvement planning, IT management, and capital planning and
     investment control processes;

    Describe the generation and maintenance of EA documentation;

    Promote information sharing through the use of standardized data the
     Department has adopted the National Information Exchange Model, the use
     of which results in data formatted in a consistent manner and enables
     information sharing; however, FHWA, FRA, and MARAD informed us
     that they are individually developing data standards;

    Incorporate analysis of departmental missions into EA maintenance and IT
     investment planning;

    Provide sufficient criteria for the choice of IT applications, or tools, for use
     in EA information management; EA programs must decide what
     applications will be used to graphically and textually capture EA
     information; FAA and PHMSA use software specialized for EA modeling
     while the remaining components use non-specialized software such as
     Microsoft Word, Excel, and PowerPoint.
                                                                                     7


DOT and component officials reported that the Department’s EA program has
been impacted by both budget cuts and personnel losses, including the disbanding
of the departmental EA Program Office. DOT’s Chief Architect, hired in 2009,
informed us that he initiated discussion with the components on EA but has had no
staff to develop a comprehensive EA program. Furthermore, OCIO officials
informed us that the Department is reviewing EA work to determine future
direction, and that this review will include completing or updating the
Department’s EA policy and procedures. The Department’s IT governance
group—the Investment Review Board—is a key part of this process. However, it
has not met since February 2011.

Because of the Department and components’ lack of comprehensive EA policies
and procedures, the existing EA programs vary and are sometimes inadequate. As
a result, it will likely be difficult to integrate the components’ architectures into a
Departmentwide EA. These inadequate policies and procedures have contributed
to the other issues we identified.

DOT Has Just Begun Collection of Components’ Information for Its
EA Repository

Until recently, DOT did not have a repository for EA information as required by
OMB. An EA repository is a mechanism for the storage and retrieval of an EA’s
content. In its response to OMB’s February 2010 request for information on
departmental EA progress, DOT began to collect and maintain information on
components’ EA programs on its SharePoint Website.10 However, this Website is
a work-in-progress and is incomplete. In the past, OCIO has had incorrect
information about the status of components’ EA development. For example, in
March 2011, prior to the establishment of the repository, OCIO reported to OMB
that OST’s EA for its GRANTS System, and FAA’s EA for the NAS were
complete, and reported the financial management systems’ EA was in progress.
However, it could not provide evidence to support those statements. In fact, in
May 2011, OST management officials informed us that they are actually still
developing EA plans for its GRANTS and financial management systems.

Even though it has set up the repository, OCIO did not provide a plan for its use
and has not defined what information it should contain. Furthermore, neither DOT
nor its components have sufficient information to fully populate the repository.
OMB requires a properly developed repository to support agency staff in strategic
planning, IT investment planning, and system life cycle development. Because
DOT has delegated authority for EA development to its components, the
information for the repository must come from the components’ programs.

10
     FAA uses its Knowledge Services Network Website.
                                                                                                        8


However, the components have made limited progress in the development of their
baseline architectures, have not defined their target architectures, and lack
transition plans. These deficiencies result in insufficient information to complete
an EA repository which in turn impedes the Department’s ability to use
components’ architectures to build a Departmentwide architecture. Specifically:

        FHWA, the Federal Motor Carrier Safety Administration (FMCSA), the
         Federal Transit Administration (FTA), MARAD, the National Highway
         Traffic Safety Administration (NHTSA), OIG, OST, the Pipeline and
         Hazardous Materials Safety Administration (PHMSA), the Research and
         Innovative Technology Administration (RITA), and STB11 do not have up-
         to-date baseline and target architectures and transition plans;

        FAA’s NAS and non-NAS have not updated their target architectures and
         transition plans; their EAs are also not integrated, though FAA has plans to
         integrate them in fiscal year 2012;

        FRA has not properly updated its target architecture and transition plan.

The lack of a complete and effective repository contributes to poor IT investment
planning, inadequate system development, data that cannot be integrated or
shared, and limited reuse of resources.

The Department Has Made Little Progress in Its Reduction of IT
System Duplication and Program Redundancy

In response to a 2011 GAO survey regarding Federal EA programs, the
Department reported that it has made little progress in its reduction of duplicate
applications, use and reuse of common services and data, improvement in system
interoperability, and streamlining and consolidation of similar business processes.
OMB requires the use of EA to identify duplication and opportunities for
consolidation and reuse of technology within and across agencies. For example,
nine components12 each maintain and fund their own PRISM13 systems. OST
management officials informed us that the Department plans to integrate these
systems through business process reengineering and consolidation, but provided
no plans for these efforts.




11
     The St. Lawrence Seaway Development Corporation (SLSDC) received an exemption from EA activities from
     OCIO in March 2011.
12
     FAA, FHWA, FMCSA, FRA, FTA, OST, NHTSA, PHMSA, and RITA.
13
     An application that automates DOT’s procurement processes, from requisition through contract award.
                                                                                                                9


As GAO noted in a March 2011 testimony before Congress,14 DOT has five
components with 6,000 employees that administer over 100 programs with
separate funding streams for highways, transit, rail, and safety functions.
Moreover, DOT has approximately 100 surface transportation programs alone
within FTA, FMCSA, FHWA, and NHTSA that it has not reviewed for
duplication and redundancy. An OCIO official noted that the Department’s
federated approach to EA development encourages stove-piping of policies and
procedures at the expense of information-sharing and resource reuse. Because it
does not have an integrated EA program, DOT’s ability to identify and reduce
duplication of systems or redundant data is limited. Consequently, the Department
may be operating costly duplicate systems and redundant programs.

DOT and Its Components Do Not Address Information Security in
Their IT Investment Management and EAs

Neither the Department nor the components sufficiently address IT security in
their IT investment planning and management, and 12 of the 13 components have
not included security as part of their EA program development. FISMA and other
statutes and regulations require departments to integrate IT security into their
capital planning and EA processes. Furthermore, GAO and OMB recognize
security as one of the core elements that measure the effectiveness of EA and IT
investment programs. However, the Department does not provide guidance to the
components on the inclusion of IT security in their budget submissions. For the
estimated $44 million they requested for fiscal year 2012, the components, with
the exception of NHTSA, did not provide adequate information on their security
investment processes or security architecture to support their projections. See
Table 1 for details.




14
     Opportunities to Reduce Potential Duplication in Government Programs, Save Tax Dollars, and Enhance Revenues,
     GAO-11-318SP (Washington, DC: March 2011).
                                                                                                           10


Table 1. Components’ FY 2012 Security Funding, Investments
Processes, and Architecture
                                                                           Security
                                       Total IT                         Investment
                                                                                    b
                                 investment              Security         Process          Security part
                                                                                                       c
                                    dollars in             dollars        (Yes, No,             of EA
                                               a                   a
                                     millions         in millions          Partial)           (Yes, No)
    FAA                                     203           32,427           Partial               No
    FHWA                                     47             2,086          Partial               No
    FMCSA                                      4            1,528          Partial               No
    FRA                                      21               297          Partial               No
    FTA                                      11               101           No                   No
    MARAD                                      4                0           No                   No
    NHTSA                                    21                58           Yes                 Yes
    OIG                                        2              260           No                   No
    OST                                      19             6,846           No                   No
    PHMSA                                    11               312           No                   No
    RITA                                     13               619           No                   No
                                                                                                     d
    SLSDC                                      1                0           Yes                 N/A
    STB                                        4                0           No                   No
        Total:                              361           44,537
a
    Source: WorkLenz–the Department’s investment portfolio system–as of March 13, 2011.
b
    An organization’s approach to its selection, management, and evaluation of IT security investments.
c
    An organization addresses security in its EA in order to consistently address security across its business,
    performance, information and data, applications and services, and technology architecture products.
d
    OCIO granted SLSDC a waiver from EA activities in March 2011.

According to OCIO officials, the Department does not have a methodology for
estimating, tracking, and reporting return on security investments, or the use of
risk analysis and return on investment to determine which security controls to
fund. Consequently, the components use their own calculations and self-report
their security funding needs to OCIO. However, we found that the components
could not support their calculations and OCIO did not hold the components
accountable for the information they reported to OMB.

OCIO reported that in fiscal year 2012, it will focus on policy updates,
implementation of practices for security cost estimations, management, reporting,
and EA alignment, but provided no plans for these efforts. The lack of these
policies and practices, including a Departmentwide methodology for security
funding estimations, makes it difficult for the Department to manage IT security in
support of its missions and business needs.
                                                                                                                    11


THE DEPARTMENT HAS NOT DEVELOPED PROCEDURES FOR
EA ACTIVITY ASSESSMENT

DOT does not have procedures for EA assessment, and consequently, cannot
measure the status and progress of its components’ EAs. OMB and GAO have
noted that as with any investment, EA should produce benefits, or returns on
investment that can be measured against costs. OMB’s guidance states that each
department should measure its EA activities against quality standards—metrics
defined in an EA development and maintenance methodology that assess an EA
program’s ability to assist management’s decisions on IT changes and
investments. OMB further states that, in order for management to benefit from an
EA, each department should regularly report EA quality measurements to
appropriate officials. However, DOT does not have a Departmentwide program15
for EA activity monitoring, and does not require components to report EA
performance measures, their plans for improvement of EA programs, or EA’s cost
savings. Nevertheless, in its response to GAO’s 2011 survey regarding EA
activities, DOT reported that it had saved an estimated $83 million in fiscal year
2009 as a result of its EA. However, DOT could not produce any support for these
savings.

For the most part, the components do not have performance measurements for
their EA activities. We identified the following issues in their programs:

        With the exception of FAA’s non-NAS, the components did not provide
         evidence of EA measurement procedures or practices for reports on their
         EA programs’ status to the Department, or plans to establish procedures;

        NAS’s Chief Architect and FAA management are still developing a
         measurement program;

        While FHWA, FMCSA, FTA, PHMSA, and SLSDC have finalized policies
         and procedures that address information security performance
         measurements, only SLSDC provided evidence of policy and procedure
         implementation;

        Components’ officials did not provide evidence that they analyze
         departmental missions and revise mission-related processes based on those
         analyses before they make significant IT investments in support of the
         missions.


15
     The Department has initiated collection of information on IT investments for use in assessments of the investments’
     performance, but does not include information on EA performance.
                                                                                 12


The lack of a Departmentwide performance measurement program and
accountability inhibits DOT’s ability to achieve costs savings and measure the
direct benefits of EA value to Agency decision-makers. Consequently,
management cannot track architecture development and use, or monitor the impact
and resulting savings of EA products and services on IT and business investment
decisions, collaboration, and reuse.

CONCLUSION

DOT annually invests approximately $3 billion in IT in order to conduct business
and meet its missions. However, the lack of a Departmentwide EA program
severely limits DOT’s ability to ensure that its IT investments are properly
planned, selected, prioritized, justified, and cost-beneficial. Furthermore, because
the Department lacks assessment procedures, it cannot measure its progress
towards effective implementation of its IT investments to meet its missions.
Without a Departmentwide EA program, DOT cannot be sure that it is maximizing
returns on IT investments through cost savings, reduction in duplicative systems,
alignment of information technology to mission, and effective information security
spending—critical requirements in an environment of scarce resources.

RECOMMENDATIONS

To ensure successful completion and implementation of an enterprise architecture
program, we recommend that the Department’s Chief Information Officer, in
coordination with the components:

   1. Develop and/or revise the Department’s EA policy and procedures to
      address the following:
         a. Development, maintenance, and use of EA in the IT investment
            process;
         b. Incorporation of the Department’s Governance groups into the CPIC
            and Enterprise Architecture processes to provide oversight and
            improved decision making relating to IT investments, including
            security funding;
         c. Creation of a standardized methodology that provides reliable
            estimates of security funding needed for system investments;
         d. Development and implementation of performance measures to gauge
            the Department’s application of EA, including investments in system
            security;
         e. Tracking and formal documentation of EA changes;

   2. Assist components in the selection and implementation of compatible EA
      tools that will facilitate the creation of a Departmentwide EA;
                                                                               13



   3. Input the required data (such as business processes, workflows, and
      technology in use) in the selected EA tools to develop or update current and
      future architectures and transition plans;

   4. Develop and implement a Departmentwide data management practice that
      provides a common data dictionary that reflects commonalities in data and
      processes and provides methods for sharing information across the
      Department;

   5. Develop a process to measure components’ EA programs’ maturity and
      effectiveness using key framework elements outlined in OMB's Enterprise
      Architecture, and develop a plan to remediate any gaps or deficiencies
      found;

   6. Develop a plan and work with the components to identify redundancy in
      current operations and technology use across the Department;

   7. Identify and report EA performance measure results, outcomes and
      progress to DOT's Governance groups and decision makers to ensure that
      they have the proper information to make EA and related information
      security decisions;

   8. Create a Departmentwide EA that is consistent with OMB and GAO’s
      frameworks and meets the requirements of the Clinger-Cohen Act.

AGENCY COMMENTS AND OIG RESPONSE

We provided the Department’s OCIO with a draft of this report on
February 8, 2012, and received its written response on March 21, 2012, which is
included in its entirety as an appendix to this report. In its response, OCIO
concurred with recommendations 1, 2, 3, 6, and 8. Due to funding constraints,
OCIO partially concurred with recommendations 4, 5, and 7. Once funding is
obtained, OCIO plans to take actions to address these recommendations.
                                                                             14


ACTIONS REQUIRED

We consider OCIO’s planned actions and target dates responsive to all our
recommendations and consider them resolved but open pending completion of the
planned actions. We appreciate the courtesies and cooperation of the Department
of Transportation’s representatives during this audit. If you have any questions
concerning this report, please call me at (202) 366-4350.

                                       #

cc: Martin Gertel, M-1
                                                                                15


EXHIBIT A. SCOPE AND METHODOLOGY

We reviewed applicable Department policies, procedures and management
practices; laws, regulations, and guidelines that address EA and CPIC; and,
Departmentwide and component documentation. Because of its formal waiver for
EA from OCIO, SLSDC was exempted from our assessment of EA but were
included in the IT investment review. We reviewed and assessed DOT’s EA tools,
including DOT’s SharePoint Website and FAA’s KSN website, to review relevant
content within components’ EAs and determined if the Department had
implemented and maintains an automated EA modeling tools. We also reviewed
EA investments and documentation (IT modernization plans/blueprints) by
reviewing components’ investments and determined alignment to DOT EA. In
addition, we reviewed all component IT investment governance practices and
assess their Capital Planning Investment Control (CPIC) program to determine if
information security is effectively addressed in the IT Investment Management.
We interviewed key personnel, including contractors, at OST, OCIO, and DOT’s
component. We conducted site visits at DOT Headquarters in Washington, D.C.
Additionally, we reviewed prior GAO and DOT reports and evaluated progress
reported on the implementation of recommendations.

In our evaluation of the Department’s current and target EA development, and
quality of the EA program, we used OMB and GAO guidance, and NIST SP
series. For instance, OIG used as a benchmark GAO’s A Framework for Assessing
and Improving Enterprise Architecture Management to determine if the
Department satisfied all 59 core elements for the development, maintenance, and
use of an EA. OIG also used OMB’s EA Framework, which consists of three
capability areas: 1) completion; 2) use; and 3) results. OMB’s capability area
representations of the critical success attributes are fundamentally aligned and
substantially consistent to GAO’s core elements. See Exhibit C for the 59 core
elements, the three capability areas, and our aggregate assessment of DOT
components’ EA programs.

This performance audit was conducted at DOT and FAA Headquarters in
Washington, D.C., in accordance with generally accepted Government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.




Exhibit A. Scope and Methodology
                                                                                                    16


EXHIBIT B. DOT COMPONENT ENTERPRISE ARCHITECTURE
FUNDING SUMMARY
                                                                   Enterprise Architecture
                                                                           Funding
                                                                  FY 2010 &      FY 2011 and
                     a
 DOT Components                                                    Earlier         beyond
                                                                  (millions)      (millions)

 Federal Aviation Administration (FAA)                                     $19               $14

 Federal Highway Administration (FHWA)                                        1                .4

 Federal Motor Carrier Safety Administration (FMCSA)                          3                .5

 Federal Railroad Administration (FRA)                                        2               4.3

 Federal Transit Administration (FTA)                                       1.6                .7

 Maritime Administration (MARAD)                                              5                .1

 National Highway Traffic Safety Administration (NHTSA)                     4.8               3.1

 Office of Inspector General (OIG)                                            0                 0

 Office of the Secretary (OST)                                              12                1.9
 Pipeline and Hazardous Materials Safety Administration                                     Not
 (PHMSA)                                                         Not Reported          Reported
 Research and Innovative Technology Administration
 (RITA)                                                                       0                 0
 Saint Lawrence Seaway Development Corporation
 (SLSDC)                                                                      0                 0

 Surface Transportation Board (STB)                                          .1               .06

           Total                                                         $48                 $25
Source: WorkLenz as of March 13, 2011
a
  For purposes of reporting under EA, we consider "DOT Components" to include all organizations listed
  above.




Exhibit B. DO T Component Enterprise Architecture Fundi ng Summar y
                                                                                                                    17


EXHIBIT C. ASSESSMENT OF DOT’S ENTERPRISE
ARCHITECTURE (EA) EFFORTS AGAINST GAO’S EA
MANAGEMENT MATURITY FRAMEWORK
Maturity         GAO Core         OMB              Description                                      Satisfied?
Stage                    16       Capability                                                        (Yes, No,
                 Element
                                       17                                                                    18
                                  Area                                                              Partial)

       0         Creating EA Awareness

       1         Establishing EA Institutional Commitment and Direction
                       1               Use         Written and approved organization                     Partial
                                                   policy exists for EA development,
                                                   maintenance, and use.

                       2               Use         Executive committee representing the                    No
                                                   enterprise exists and is responsible
                                                   and accountable for EA.
                       3               Use         Executive committee is taking                         Partial
                                                   proactive steps to address EA cultural
                                                   barriers.
                       4               Use         Executive committee members are                         No
                                                   trained in EA principles and concepts.
                       5               Use         Chief architect exists.                               Partial

                       6               Use         EA purpose is clearly stated.                           No

                       7               Use         EA framework(s) is adopted.                            Yes

                       8            Results        EA performance and accountability                       No
                                                   framework is established.
       2         Creating the Management Foundation for EA Development and Use
                       9               Use         EA budgetary needs are justified and                    No
                                                   funded.
                      10               Use         EA program office(s) exists.                            No



16
     GAO-10-846G
17
     This representation reflects the three capability areas that are provided for in OMB’s EA Assessment Framework.
     As such, this representation demonstrates how GAO and OMB’s EA frameworks are fundamentally aligned and
     substantially consistent. The three capability areas and OMB’s definition of each are as follows: Completion: The
     extent to which an agency has developed an integrated, organization wide architecture, in terms of business,
     performance, data, services, technology, and security, as well as a comprehensive enterprise transition plan. Use:
     The extent to which the agency has established key management practices, processes, and policies needed for
     developing, maintaining, and overseeing its architecture, and for demonstrating both the importance of architecture
     awareness and the value of employing architecture practices; it also assesses the extent of the agency’s use of its
     architecture to inform strategic planning, program performance improvement planning, information resources
     management, IT management, and capital planning and investment control processes. Results: The extent to which
     the agency is measuring the effectiveness and value of its architecture activities by assigning performance
     measurements to its architecture and related processes, and reporting on actual results to demonstrate architecture
     success.
18
     To determine the results, we aggregated our assessment of the DOT components’ EA against GAO’s core elements
     and OMB's capability areas.

Exhibit C. Assessment of DOT's Enterprise Architecture (EA) Efforts Against
GAO’s EA Management Maturity Framework
                                                                                             18


Maturity   GAO Core     OMB           Description                              Satisfied?
Stage              16   Capability                                             (Yes, No,
           Element                                                                      18
                             17
                        Area                                                   Partial)
               11           Use       Key program office leadership                  No
                                      positions are filled.
               12           Use       Program office human capital plans             No
                                      exist.
               13           Use       EA development and maintenance               Partial
                                      methodology exists.
               14           Use       Automated EA tools exist.                    Partial

               15           Use       EA program management plan exists            Partial
                                      and reflects relationships with other
                                      management disciplines.
              16            Use       Work breakdown structure and                 Partial
                                      schedule to develop EA exist.
              17        Completion EA segments, federation members,                Partial
                                      and/or extended members have been
                                      identified and prioritized.
              18          Results     Program office readiness is measured           No
                                      and reported.
   3       Developing Initial EA Versions
              19            Use       Organization business owner and                No
                                      CXO representatives are actively
                                      engaged in architecture development.
               20           Use       EA human capital plans are being               No
                                      implemented.
               21           Use       Program office contractor support              No
                                      needs are being met.
               22           Use       Program office staff are trained in EA         No
                                      framework, methodology, and tools.
               23           Use       Methodologies and tools exist to               No
                                      determine investment compliance
                                      with corporate and subordinate
                                      architectures.
               24           Use       Methodologies and tools exist to               No
                                      determine subordinate architecture
                                      alignment with the corporate EA.
               25           Use       EA-related risks are proactively               No
                                      identified, reported, and mitigated.
               26       Completion    Initial versions of corporate “as-is”        Partial
                                      and “to-be” EA and sequencing plan
                                      are being developed.
               27       Completion    Initial version of corporate EA              Partial
                                      describing the enterprise in terms of
                                      performance, business, data,
                                      services, technology, and security is
                                      being developed.
               28       Completion    One or more segment and/or                   Partial
                                      federation member architectures are
                                      being developed.
               29       Completion    Architecture products are being               Yes

Exhibit C. Assessment of DOT's Enterprise Architecture (EA) Efforts Against
GAO’s EA Management Maturity Framework
                                                                                              19


Maturity   GAO Core     OMB          Description                                Satisfied?
Stage              16   Capability                                              (Yes, No,
           Element                                                                       18
                             17
                        Area                                                    Partial)
                                     developed according to the EA
                                     content framework.
               30       Completion   Architecture products are being                  No
                                     developed according to a defined EA
                                     methodology.
               31       Completion   Architecture products are being                  No
                                     developed using EA tools
               32        Results     Architecture development progress is             No
                                     measured and reported.
   4       Completing and Using an Initial EA Version for Targeted Results
               33          Use       Executive committee has approved                 No
                                     the initial version of corporate EA.
               34          Use       Key stakeholders have approved the               No
                                     current version of subordinate
                                     architectures.
               35          Use       EA is integral to the execution of other         No
                                     institutional management disciplines.
               36          Use       Program office human capital needs               No
                                     are met.
               37       Completion   Initial versions of corporate “as-is”          Partial
                                     and “to-be” EA and sequencing plan
                                     exist.
               38       Completion   Initial version of corporate EA                  No
                                     captures performance, business,
                                     data, services, technology, and
                                     security views
               39       Completion   One or more segment and/or                       No
                                     federation member architectures exist
                                     and are being implemented.
               40        Results     EA product quality is measured and               No
                                     reported.
               41        Results     EA results and outcomes are                      No
                                     measured and reported.
               42        Results     Investment compliance with corporate             No
                                     and subordinate architectures is
                                     measured and reported.
               43        Results     Subordinate architecture alignment               No
                                     with the corporate EA is measured
                                     and reported.
   5       Expanding and Evolving the EA and Its Use for Institutional Transformation
               44          Use       Organization head has approved                   No
                                     current version of the corporate EA.
               45          Use       Organization component heads or                Partial
                                     segment owners have approved
                                     current version of their respective
                                     subordinate architectures.
               46          Use       Integrated repository tools and                  No
                                     common EA framework and


Exhibit C. Assessment of DOT's Enterprise Architecture (EA) Efforts Against
GAO’s EA Management Maturity Framework
                                                                                            20


Maturity   GAO Core     OMB          Description                              Satisfied?
Stage              16   Capability                                            (Yes, No,
           Element                                                                     18
                             17
                        Area                                                  Partial)
                                     methodology are used across the
                                     enterprise.
               47          Use       Corporate and subordinate                      No
                                     architecture program offices operate
                                     as a single virtual office that shares
                                     resources enterprisewide.
               48       Completion   Corporate EA and sequencing plan               No
                                     are enterprisewide in scope.
               49       Completion   Corporate EA and sequencing plan               No
                                     are aligned with subordinate
                                     architectures.
               50       Completion   All segment and/or federated                   No
                                     architectures exist and are
                                     horizontally and vertically integrated
               51       Completion   Corporate and subordinate                      No
                                     architectures are extended to align
                                     with external partner architectures.
               52        Results     EA products and management                     No
                                     processes are subject to independent
                                     assessment.
           Continuously Improving the EA and Its Use to Achieve Corporate
   6
           Optimization
               53          Use       EA is used by executive leadership to          No
                                     inform organization strategic planning
                                     and policy formulation.
               54          Use       EA human capital capabilities are              No
                                     continuously improved.
               55          Use       EA methodologies and tools are                 No
                                     continuously improved.
               56          Use       EA management processes are                    No
                                     continuously improved and reflect the
                                     results of external assessments.
               57       Completion   EA products are continuously                   No
                                     improved and updated.
               58        Results     EA quality and results measurement             No
                                     methods are continuously improved.
               59        Results     EA continuous improvement efforts              No
                                     reflect the results of external
                                     assessments.
Source: OIG generated using GAO and OMB EA frameworks.




Exhibit C. Assessment of DOT's Enterprise Architecture (EA) Efforts Against
GAO’s EA Management Maturity Framework
                                                                  21




EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT
Name                                    Title

Louis C. King                           Former Program Director

Michael Marshlick                       Project Manager

Martha Morrobel                         Information Technology
                                        Specialist

Susan Neill                             Writer-Editor




Exhibit D. Major Contributors to this Report
                                                                                       22


APPENDIX. AGENCY COMMENTS




  DOT Refocusing Action on Enterprise Architecture

  The Office of the Chief Information Officer (OCIO) is making substantive changes to
  the enterprise architecture (EA) program in conjunction with ongoing enhancements in
  the areas of Capital Planning & Investment Control (CPIC), and IT Governance. This
  renewed focus is intended to provide compliance with the new EA direction the Office
  of Management and Budget (OMB) is proposing and to address the issues identified in
  the OIG draft report.

  Specifically, OCIO has actions underway to realign architecture under the Office of the
  Chief Technology Officer to bring together technical, data, enterprise and solutions
  architectures under one umbrella and into a common architectural fabric. This action
  is expected to benefit the development of all our systems as well and provide visibility
  into opportunities to consolidate and rationalize the Department’s IT portfolio. This
  realignment, coupled with the tight integration of architecture with the Technology
  Control Board (TCB) and the testing labs, will allow DOT to keep the target
  architecture as the driving force behind future IT investment choices and influence
  acquisition decisions.



Appendix. Agency Comments
                                                                                         23


  Given the availability of a relatively fixed set of resources, these efforts to provide a
  structured portfolio management process will necessitate the use of resources that may
  have been used elsewhere, and will require the application of a prioritized approach to
  action on the OIG recommendations.

  In order to offer transparency as to the priority OCIO is assigning to the OIG
  recommendations, we established the following:

          Ranking A: Recommendations will receive the highest priority and OCIO
           commits to work with the OAs to achieve the results.

          Ranking B: Recommendations will be evaluated for inclusion in upcoming
           budget cycles. Implementation will commence only when funding is
           secured.

          Ranking C: Based on the priority of compliance with direction from OMB,
           along with other priority use of funding and staffing, these actions would be
           addressed after priority A and B are completed or if there were an
           unexpected surfeit of funds.

  RECOMMENDATIONS AND RESPONSE

  Recommendation 1: Develop and/or revise the Department's EA policy and
  procedures to address the following:

    a. Development, maintenance, and use of EA in the IT investment process.

    b. Incorporation of the Department's Governance groups into the CPIC and
       Enterprise Architecture processes to provide oversight and improved decision
       making relating to IT investments, including security funding.

    c. Creation of a standardized methodology that provides reliable estimates of
       security funding needed for system investments.

    d. Development and implementation of performance measures to gauge the
       Department's application of EA, including investments in system security.

    e. Tracking and formal documentation of EA changes.


  Response: Concur. OCIO will update the DOT overarching policy to:




Appendix. Agency Comments
                                                                                                                       24


            Assert that the Federal Segment Architecture Methodology, Version 1.0
             (FSAM v1.0) is the preferred architectural development methodology. This
             process will address items a, c, and e above, along with all appropriate
             requirements and guidance19. These recommendations are considered priority
             ranking A and are intended to be completed by October 30, 2012. With regard
             to item b, formally integrating the EA and CPIC programs, OCIO intends to
             incorporate a portfolio management approach in revising its policy. This
             recommendation is considered priority ranking A and is intended to be
             completed by May 1, 2013.
            With regard to item d, we consider the implementation measures of getting the
             policy and procedures in place to be the priority actions necessary to achieve
             compliance with the OMB requirements and to make significant headway on
             key issues identified by OIG. As a result, at this time we consider creating
             performance measures to be a C level priority and would have to defer any
             commitment to implementation at this time to FY 2014 or FY 2015.

      Recommendation 2: Assist components in the selection and implementation of
      compatible EA tools that will facilitate the creation of a departmentwide EA.

      Response: Concur. OCIO will request documentation for each current OA EA tool
      set and conduct an assessment to determine if one of the existing tools has the
      capability to support the entire Department. If we determine that none of the tools can
      be utilized for the entire Department, OCIO will conduct an analysis of available tools
      seek alternatives. This recommendation is considered priority ranking A, and is
      intended to be completed by May 1, 2013.


      Recommendation 3: Input the required data (such as business processes, workflows,
      and technology in use) in the selected EA tools to develop or update current and future
      architectures and transition plans.

      Response: Concur. As described above, adopting FSAM as the Department standard
      and assisting with the adoption compatible EA tools by all OAs will help address this
      finding. OCIO will also work with OST program offices and modal administrations to
      develop and maintain the Department’s current state and proposed future state
      architectures and make appropriate changes as the target state evolves. The resulting
      EA models will be developed in an iterative manner, following FSAM best practices.
      This recommendation is considered priority ranking B and will be evaluated for
      inclusion in the upcoming budget cycle but will not be implemented until funding is
      secured.

19
     The FSAM Web site (http://www.fsam.gov) provides guidance and templates for Enterprise Architects, CPIC Professionals,
     Security Professionals, Solution Architects, and Business Owners


Appendix. Agency Comments
                                                                                        25


  Recommendation 4: Develop and implement a departmentwide data management
  practice that provides a common data dictionary that reflects commonalities in data
  and processes and provide methods for sharing information across the Department.

  Response: Concur in part. OCIO will evaluate alternative methods and best practices
  for data dictionaries and implement planning for a future build that will ultimately
  conform to the National Information Exchange Model (NIEM) standard. This will
  allow for an iterative adoption of standard data elements as the final solution is being
  implemented. This recommendation is considered priority ranking B and will be
  evaluated for inclusion in the upcoming budget cycle but will not be implemented until
  funding is secured.


  Recommendation 5: Develop a process to measure components’ EA programs'
  maturity and effectiveness using key framework elements outlined in OMB's
  Enterprise Architecture, and develop a plan to remediate any gaps, or deficiencies
  found.

  Response: Concur in part. While OCIO recognizes the potential to improve
  measurement of OA EA efforts using established maturity models, such action is
  significantly lower priority than taking the actions necessary to implement consistent
  policy and procedures across the Department, to achieve compliance with OMB
  requirements. As a result, at this time we consider creating measures to be a C level
  priority and would have to defer any commitment to implementation at this time to FY
  2014 or FY 2015.


  Recommendation 6: Develop a plan and work with the components to identify
  redundancy in current operations and technology use across the Department.

  Response: Concur. Redundancy can be eliminated at many layers of the IT portfolio,
  not solely at the IT system or application level. By implementing the EA standards
  from FSAM and leveraging the Integrated Planning and Project Management (IPPM)
  framework, the foundation will be established for progress in reducing duplication. In
  response to this recommendation, a plan will be developed to analyze the existing EA
  framework in a segmented review and identify similar OA systems to partner, share
  services, eliminate redundancy and leverage licensing agreements. This
  recommendation is considered priority ranking A, and is intended to be completed by
  May 1, 2013.


  Recommendation 7: Identify and report EA performance measure results, outcomes
  and progress to DOT's Governance groups and decision makers to ensure that they


Appendix. Agency Comments
                                                                                          26


  have the proper information to make EA and related information security decisions.

  Response: Concur in part. As indicated in the response to Recommendation 5 above,
  while OCIO recognizes the potential to improve measurement of EA efforts, such
  action is a significantly lower priority than taking the actions necessary to implement
  consistent policy and procedures across the Department, to achieve compliance with
  OMB requirements. As a result, at this time we consider creating measures to be a C
  level priority and would have to defer any commitment to implementation at this time
  to FY 2014 or FY 2015.


  Recommendation 8: Create a department wide EA that is consistent with OMB and
  GAO’s frameworks and meets the requirements of the Clinger-Cohen Act.

  Response: Concur. As stated above, OCIO is making a renewed commitment to have
  a department-wide enterprise architecture program that combines the disciplines of
  technical, data, solutions and enterprise architecture under a single division. This
  integration is expected to bring dramatic efficiencies to the current process. The OCIO
  commits to identifying the necessary tools and personnel necessary through
  realignment and to forming Integrated Program Teams (IPT) that include
  representation from all impacted OAs. This will ensure that the target architecture is
  built according to the Department’s requirements.

  The OCIO commits to producing an EA policy that complies with OMB’s
  requirements in addition to addressing capital planning, new technologies, and
  streamlined service delivery to the OAs. This policy and improvements to the various
  elements of the program will be supported by a more robust governance process that is
  currently under development and review.

  OCIO has many actions underway to support the IG’s recommendations. An OCIO
  reorganization request is in process, policy elements have been drafted, and tools will
  be assessed as a part of the integrated program. All of these efforts will lead to a fully
  integrated program. This recommendation is considered priority ranking A, and is
  intended to be completed by May 13, 2013.

  OCIO has designated the senior accountable official to be Larry Slaughter, Acting
  CTO, for all the recommendations above. He can be reached at
  Larry.Slaughter@dot.gov or 202-366-0132. All requests for information going
  forward should be addressed to Mr. Slaughter.




Appendix. Agency Comments
